No.

IN THE

SUPREME COURT OF THE UNITED STATES

DWAYNE SHECKLES, Petitioner
VS.
UNITED STATES OF AMERICA, Respondent

CERTIFICATION OF COUNSEL

Pursuant to Supreme Court Rule 33.1(h), counsel states that the Petition for
Certiorari filed in this matter was prepared in Word 2016, using Century 12 point

font, and contains 3060 words.
i, /
Z ZO
Cc ~

Kevin M. Schad

Attorney for Petitioner

Office of the Federal Public Defender
Southern District of Ohio

250 E. Fifth St.

Suite 350

Cincinnati OH 45202

(513) 929-4834

Fax (513) 929-4842

Kevin schad@fd.org

     

CERTIFICATE OF SERVICE

I hereby certify that a true copy of the foregoing was sent this 22nd day of
July, 2021, by U.S. mail as well as through electronic filing, to the office of the

Solicitor General. _
ZAI

Kevin M. Schad
Attorney for Petitioner
